Final Audit Report No. AU 02-01 (938010)
Home < Reports < Audit Reports    Legal Services Corporation Office of Inspector General
Review of Grantee's Transfer of Funds, and Compliance with Program Integrity Standards
Grantee: Lane County Legal Aid Service, Inc.
Recipient No. 938010
Report No. AU 02-01
Other formats: PDF 191K | Word 76K | Grantee's Comments: PDF 363K | Transmittal Letter: PDF 44K
October 2001
TABLE OF CONTENTS
RESULTS OF AUDIT
OBJECTIVE INTEGRITY AND INDEPENDENCE
COMPLIANCE WITH REQUIREMENTS
CONCLUSION
RECOMMENDATIONS
SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT AND THE OIG'S RESPONSE TO THEIR COMMENTS
BACKGROUND
OBJECTIVES, SCOPE, and METHODOLOGY
APPENDIX l - Grantee's Comments On Draft Report	I-1
APPENDIX II - OIG Staff Responsible for the Audit and Report	Il- 1
RESULTS OF AUDIT
The Legal Services Corporation (LSC) Office of Inspector General (OIG)
conducted this audit to determine whether Lane County Legal Aid Service, Inc.
("grantee") was in compliance with certain requirements of 45 CFR Part 1610.  This
regulation prohibits grantees from transferring LSC funds to an organization that
engages in activities prohibited by the LSC Act and LSC appropriation acts, with one
exception.  The only exception is that LSC funds may be used to fund private attorney
involvement (PAI) activities that such an organization performs for the grantee.  In
addition, grantees must maintain objective integrity and independence from
organizations that engage in restricted activities.
Between July 1, 1999 and June 30, 2001, the grantee did not comply with the
program integrity requirement of Part 1610.  Specifically, the grantee:
did not maintain objective integrity and independence from a legal
organization that engaged in prohibited activities;
allowed a full-time attorney to work on a class action suit for the other
organization while in the grantee's office; and
certified compliance with Part 1610 without the required supporting report.
Our limited review of cases filed in the state circuit courts in Lane County and
adjacent counties indicated that the cases did not involve restricted or prohibited
activities.  However, we identified a relatively minor case reporting deficiency that is not
directly related to program integrity.  The grantee did not report seven cases filed in
court by its attorneys as required by 45 CFR Part 1644.
OBJECTIVE INTEGRITY AND INDEPENDENCE
The grantee did not establish and maintain objective integrity and independence
as required by 45 CFR Section 1610.8.  It maintains a close working relationship with
the Lane County Law and Advocacy Center (Advocacy Center), a legal organization
that handles prohibited cases.  The grantee and the Advocacy Center are co-located in
the same building with little to distinguish between the organizations.  The organizations
share both professional and administrative staff and are linked financially through
payments for rent and services.  In our opinion, the organizations are virtually
indistinguishable to clients and individuals not aware of the working arrangements under
which the organizations function.
Requirements
Section¹ 1610.8 states that grantees must have objective integrity and
independence from organizations that engage in restricted activities.  The grantee
meets the requirements of this regulation if:
the other organization is a legally separate entity,
it does not transfer LSC funds to the organization and LSC funds do not subsidize restricted activities, and
it is physically and financially separate from the other organization.
The preamble to Section 1610.8 requires the grantee to ensure that it is not identified
with restricted activities and that the other organization is not so closely identified with
the recipient that there might be confusion or misunderstanding about the recipient's
involvement with or endorsement of prohibited activities.
COMPLIANCE WITH REQUIREMENTS
The grantee met the first requirement.  The Advocacy Center was incorporated
as a separate entity under Oregon law in November 1995.  We found no indication that
the grantee improperly transferred LSC funds to the Advocacy Center.  However, the
grantee subsidized the Advocacy Center, to a limited extent, when one of its attorneys
worked on a class action suit in the grantee's office space.  The third requirement was
not met.  Based on the totality of the following facts, we concluded that the grantee did
not maintain physical and financial separation from the Advocacy Center and, therefore,
did not have objective integrity and independence from that organization.
Financial Arrangements
The grantee and the Advocacy Center have intertwined financial arrangements.
Over the past two fiscal years the grantee paid the Advocacy Center over $99,000 in
rent and for providing PAI services.  In fiscal 2001 the Advocacy Center paid the
grantee $18,000 for administrative services.  In October 2000, the Advocacy Center
gave the grantee a $30,000 unsecured loan at a favorable seven percent interest rate.
The loan was promptly repaid.  In December 1995, the grantee sold its building
(purchased with non-LSC funds) to the Advocacy Center and held a second mortgage
on the property.  The Advocacy Center paid off the second mortgage in fiscal year
1999.  The grantee's annual rent payments for part of the building exceeded its
mortgage payments when it owned the building.
Co-location
The grantee and the Advocacy Center are located in the same building.  The
grantee began leasing space from the Advocacy Center after selling it the building.
Initially, the grantee leased one office on the first floor, four offices on the second floor,
and four offices on the third floor.  Staff employed by the Advocacy Center occupied the
remaining space on each of the three floors.  In March 1998, the grantee began leasing
the third floor, one office on the second floor, and approximately 75 percent of the
basement, which is used by both organizations for storage of archived files.  Mailboxes
for the grantee's employees and the Center's employees are co-located on the first floor
of the building.
Separate signs are posted in the front of the building for each organization. The
grantee's sign is about the same size as the Advocacy Center's sign.  Signs placed on
doors leading to the stairs state that "Legal Aid" is on the third floor.  The sign provides
direction to the grantee's office but contains nothing to distinguish the grantee from the
Advocacy Center.
Shared Staff
The grantee and the Advocacy Center shared staff in three areas: case intake,
the grantee's private attorney involvement (PAI) program, and administration.
Sometimes grantee staff worked for the Advocacy Center.  Other times the Advocacy
Center's staff worked for the grantee.  In addition, a grantee attorney considered a full-
time employee worked on a class action suit for the Advocacy Center.  The following
sections discuss the specifics of the staff sharing.
Case Intake
The Advocacy Center's staff performs client intake for the grantee Monday
through Friday between 1:00 pm and 3:00 pm.  The vast majority of clients "walk in" and
few clients are accepted over the phone.   The potential clients are provided an
information sheet that states the Law Advocacy Center houses two non-profit
corporations, the grantee and the Advocacy Center.  The name, address and phone
numbers of the Advocacy Center are listed on the information sheet, but the grantee's
address and phone number are not provided.  The grantee is only mentioned in the
context of the types of legal assistance it provides.
The Advocacy Center's staff gives potential clients an Application form to
document their legal problem and to record eligibility data and other information.  The
Application is an Advocacy Center form and includes information about the Advocacy
Center but does not mention the grantee.  The Advocacy Center's staff interviews the
potential client and makes any needed clarifications to the data on the Application.  The
Advocacy Center's Executive Director reviews the Application and decides if the
potential client will be referred to the grantee, the Advocacy Center, Pro Bono attorneys
under the grantee's Private Attorney Involvement (PAI) program or another legal service
provider.
For individuals referred to the grantee, the Advocacy Center's receptionist uses
the client's Application to input the required data into the grantee's case management
system.  The Advocacy Center's staff creates a manual case file that includes the
client's Application and its Executive Director places the case file in the mailbox of the
grantee's employee who will handle the case.  This is tantamount to assigning the case
to a grantee employee.  The grantee does not compensate the Advocacy Center for
case intake services except for the costs associated with clients that are referred to pro
bono attorneys under the PAI program.
Clearly the grantee and the Advocacy Center are indistinguishable to a client
going through the intake process.  In our opinion, the client would conclude that the
Advocacy Center was providing legal services even in the cases where the grantee's
staff's provides the services.
Private Attorney Involvement Program
The Advocacy Center's staff oversees the grantee's PAI program.  Under this
program one to four attorneys provide pro bono legal services to grantee clients on
Tuesday evenings.  Each attorney sees between three and six clients on behalf of the
grantee.  The grantee provides no oversight of the pro bono attorneys.
The Advocacy Center's Executive Director determines which of the grantee's
clients will be referred to a pro bono attorney and its staff schedules appointments for a
Tuesday evening.  Three Advocacy Center employees, including the Executive Director,
coordinate the interaction between the grantee's clients and the pro bono attorneys.
Most of the clients are provided counsel and advice by the pro bono attorneys and their
cases are completed in one Tuesday evening meeting.  On Wednesday the Advocacy
Center's Executive Director sends the case files to the grantee's bookkeeper.  The
bookkeeper reviews the files to ensure that a closure code has been recorded and then
closes the cases in the grantee's case management system.  For cases not completed
on Tuesday evening the pro bono attorneys retain the case files.  The grantee's
administrative staff follows up with the attorneys to ensure the completed case files are
promptly returned.
The grantee paid the Advocacy Center a total of almost $30,000 for overseeing
the PAI program during fiscal years 2000 and 2001.  Under a Memorandum Of
Understanding dated January 1, 1996, the Advocacy Center provides client intake
services, referral services, Tuesday evening appointments, and supervises the private
attorneys.  The grantee pays for these services based on the amount of time the
Advocacy Center's staff charges to the grantee's PAI program.  The grantee also pays
the Advocacy Center $400 per month for space used by the pro bono attorneys.  The
grantee records these payments as PAI expenses and pays them with LSC provided
funds.
Administrative Staff
Under a fixed cost contract originally signed in June 1996, the grantee's
Administrator and Bookkeeper provide administrative, fiscal planning, and bookkeeping
services to the Advocacy Center.  The contract requires the Advocacy Center to pay the
grantee $1,500 a month for these services.  The grantee's employees maintain
timesheets on which they record the amount of time spent providing services to the
Advocacy Center.  Grantee officials stated that, over the course of a year, $1,500 a
month allows them to recoup their costs. Although it appears that the grantee is not
subsidizing the Advocacy Center the organizations are sharing administrative staff.
Class Action Suit
A grantee attorney, who was classified as a full-time employee, occasionally
worked on a class action suit for the Advocacy Center and performed some of the work
in the grantee's office.  The Advocacy Center paid the attorney for his work.
LSC grantees are precluded, with some limited exceptions, by law and regulation
from being involved in class action suits.  Section 1617.3 and Section 1610.3 prohibit
grantees from participating in class action suits.  Section 1610.8(a)(2) prohibits grantees
from using LSC funds to subsidize class action suits that other legal organizations are
pursuing.
A grantee attorney charged the Advocacy Center about 160 hours between July
1, 1999 and June 30, 2001, for work on a class action suit.  Over the two-year period
this amounted to about seven hours a month, a small but not de minimis amount.  The
Advocacy Center paid the attorney for his work based on the time he recorded on
timesheets.  The attorney performed some of the class action suit work in his office in
the grantee's rented space.  He did not have an office at the Advocacy Center.
Because records were not maintained, the OIG was not able to determine the amount of
time that the attorney worked on the class action suit or the tasks performed while at his
grantee provided office.
Grantee management told us that the attorney was considered a full-time
employee, except that he was considered a part-time employee during any months that
he also worked for the Advocacy Center.  Grantee records listed the attorney as a full-
time employee with no indication of part-time status.  The only documented indication of
the attorney's temporary part-time status was his time sheets and completed
certifications required by Section 1635.3(d).
Under Section 1635.3(d), attorneys who work part-time for a grantee and part-
time for an organization that engages in restricted activities must certify in writing that
they (1) did not engage in restricted activity when paid by the grantee and (2) did not
use grantee resources for restricted activities.  Certifications are made quarterly.  The
certification requirement does not apply to de minimis activities.  The de minimis
standard are those that meet all or most of the following criteria: actions that are of little
substance; require little time; are not initiated by the part-time employee; and for the
most part, are unavoidable.  LSC's Program Letter 2000-5 provides additional guidance.
It states that whether the part-time employee initiates activities is key to determining
their acceptability.  Receiving a brief unavoidable phone call about a prohibited case
would be considered de minimis.  Making a telephone call related to a restricted activity
would violate the regulation.
The attorney who worked on the class action suit for the Advocacy Center
provided the required certifications.  The OIG obtained limited assurance that the
grantee did not compensate the attorney while he was working on the class action suit.
This limited assurance is based on discussions with grantee officials and the fact that
the Advocacy Center and the grantee issued separate, pro-rated paychecks to the
attorney for certain pay periods.  However, despite his certifications, the attorney did
use grantee resources including his office and phone while working on the class action
suit.  Considering the number of hours involved, the OIG concluded that the activities
were more than de minimis.
Other Shared Resources
In addition to sharing staff, the grantee and the Advocacy Center share
accounting and timekeeping systems, an Internet web page and telephone and fax
machine numbers.  Each is discussed in the following.
Accounting and Timekeeping Systems
The grantee and the Advocacy Center use the same accounting and timekeeping
systems, however their individual records are separately maintained. Under the
timekeeping system employees of both organizations may be paid for a maximum of
162.5 hours per month.  Overtime is not paid.  A grantee employee may work for both
organizations during a month, with each organization paying a pro rata share of the
employee's salary.  The grantee and the Advocacy Center jointly established and
implemented this policy.  In one case, an attorney occasionally worked for both the
grantee and the Advocacy Center over several years.  Each month that this occurred,
the grantee and the Advocacy Center issued separate paychecks to the attorney for
their prorated share of his salary.
Internet Web Page
The grantee's Internet web page states that the legal services "family" in Lane
County, includes Lane County Legal Aid Services, Lane County Law and Advocacy
Center, and the Senior Law Service.  The Senior Law Service is part of the Advocacy
Center.  The web page states that these organizations work together to provide legal
services to low-income persons in Lane County.  The web page includes an extensive
write-up about a class action suit being handled by the Advocacy Center.  A grantee
employee who works on the class action suit is identified as an Advocacy Center
employee.  The web page does not clearly indicate that the grantee and the Advocacy
Center are separate organizations and that the grantee may not engage in restricted
activities such as class action suits.  The grantee and the Advocacy Center share the
cost of the web page.
Telephone and FAX Numbers
The grantee and the Advocacy Center have the same telephone number in the
Lane County yellow pages.  Each organization, in fact, has its own separate phone
number and each pays its share of telephone expenses.  Because a single number is
listed, individuals contacting the grantee or Advocacy Center through the yellow pages
number are likely to conclude that they are dealing with one organization.  In addition,
the grantee and the Advocacy Center share a fax machine with a single telephone
number and share the related costs.
Conclusion
Taking all the above factors into consideration, we concluded that the grantee
and the Advocacy Center were so closely aligned that they appeared to be one
organization.  The grantee and the Advocacy Center shared administrative and
professional staff.  The Executive Director and other Advocacy Center professionals
performed supervisory functions that are the responsibility of grantee management. The
two organizations shared communication devices.  As a result of this close relationship
the grantee was unable to maintain objective integrity and independence.  The grantee
clearly and unambiguously violated Section 1610.8.
Report On Compliance With Program Integrity Requirements
The grantee's Executive Director did not prepare a written report to the Chairman
of the Board of Directors covering the grantee's involvement with the Advocacy Center.
Section 1610.8 requires the Chairperson of the grantee's Board to certify annually that
the grantee complies with program integrity requirements. In an October 30, 1997
memorandum to all grantees, LSC required that the certification be supported by a
written report from the Executive Director to the Chairman.  The Executive Director told
the OIG that for 1999 and 2000 he provided the Chairman an oral report in lieu of a
written one.  Based on these reports, the Chairman certified that the program complied
with the program integrity requirement of Section 1610.8.  If the Executive Director had
reviewed his staff's involvement with the Advocacy Center as part of preparing a written
report, he may have uncovered and been able to correct the program integrity problems
we found.
Case Review
Cases filed in state circuit courts in Lane County and adjacent counties did not
involve prohibited or restricted activities.  We identified 59 cases filed in state courts
with the grantee's employees as the attorney of record.  OIG staff reviewed the
pleadings and related materials for all 59 cases and discussed several cases with the
grantee's staff.  There were no indications that any of the cases involved restricted or
prohibited activities.  However, some cases were not reported to LSC as required.
45 CFR Part 1644 requires grantees to semiannually report to LSC each case
they file in court.  The report must include the names of the parties to the case and the
cause of action.  Grantees are required to adopt written policies and procedures to
implement this regulation.  For calendar year 2000, the grantee reported that two cases
were filed in state courts.  One case should not have been reported because it was filled
in 1999.  The OIG identified seven additional cases that were not reported².
The grantee has written procedures requiring the attorneys who file the cases to
provide the case information to the grantee's Administrator who reports it to LSC.
These procedures were not followed for the seven unreported cases.  The responsible
attorneys did not provide the required information to the Administrator. Grantee
management agreed that a breakdown in procedures had occurred.  The grantee
implemented corrective action during the OIG's site visit.
CONCLUSION
The grantee made an effort to comply with the program integrity requirements of
1610.8 and related regulations.  These efforts were not entirely successful and some
violations of 1610.8 and the corollary regulations occurred. Most significantly, the
grantee did not maintain objective integrity and independence from the Advocacy
Center.  To correct this problem, the grantee needs to establish a clear demarcation
between itself and the Advocacy Center. Some things, such as the building sale and the
intertwined financial arrangements, cannot be reasonably changed.  The grantee does
not need to relocate to a separate building.  The needed separation can be established
at relatively little cost by modifying procedures, adopting new ones, and clearly
distinguishing the grantee from the Advocacy Center.  The following recommendations
provide for the needed changes.
RECOMMENDATIONS
We recommend that Lane County Legal Aid Service management:
Revise application materials provided to potential clients to state that
the grantee does not engage in or endorse activities that are prohibited
by LSC's Appropriation laws.
Implement procedures requiring the grantee's Executive Director, or a
designee, to approve all referred clients and assign professional staff to
assist the client.
Implement procedures requiring grantee employees to initially input
client information into the case management system and create the
client's case file.
Implement controls that prevent the Advocacy Center from accessing
the grantee's case management system.
Assign a grantee employee to (a) coordinate the efforts of pro bono
attorneys working in the PAI program and (b) act as the intermediary
between clients and attorneys.
Provide written notification on LCLAS letterhead to clients that a pro bono
attorney will assist her/him at a designated location on a specified date
and time.
Establish an Internet web page separate from the Advocacy Center or,
if a single web page is maintained, provide clear language that
distinguishes the grantee from the Advocacy Center.
Obtain a fax machine for the exclusive use of grantee staff.
Request that the phone company separately list the grantee's telephone
number and the Advocacy Center's number in the yellow pages.
Rescind the policy jointly established by the grantee and the Advocacy
Center that allows employees to be paid for a maximum of 162.5
hours a month and to split their time between the two organizations.
Adopt a new policy that establishes the maximum number of hours
that grantee employees may be compensated for each month.
Formally remind grantee employees that they are precluded from doing
Advocacy Center work, except that considered de minimis, in the
grantee's office space.
Provide the grantee's Board Chairman an annual written report stating
whether the grantee complies with the program integrity requirements of
45 CFR Part 1610.
SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT
AND THE OIG'S RESPONSE
GRANTEE COMMENT
The grantee stated that the facts and conditions presented in the OIG's draft
report are accurate.  LCLAS stated that the OIG used an interpretive approach to the 45
CFR Part 1610.8 program integrity requirements in a few places.  Grantee management
asserted that the audit utilized an appearance standard whereas an objective standard
should have been used.
OIG RESPONSE
The OIG objectively assessed the grantee's compliance with Section 1610.8.
This regulation states that a recipient must have objective integrity and independence
from any organization that engages in restricted activities.  The recipient must be
physically and financially separate from the other organization.  The preamble to
Section 1610.8 states that the grantee must ensure that it is not identified with restricted
activities and that the other organization is not so closely identified with the recipient
that there might be confusion or misunderstanding about the recipient's involvement
with or endorsement of prohibited activities.  The facts clearly show that the grantee is
closely identified with the Advocacy Center.  After assessing all available information,
we concluded that LCLAS did not maintain physical and financial separation from the
Advocacy Center and did not maintain objective integrity and independence from that
organization.  The grantee did not provide any information to change our conclusion.
GRANTEE COMMENT
The grantee suggested that, if confusion and misunderstanding are used as a
standard, any conclusions reached about the program integrity of a recipient should be
based on a totality of objective facts.  LCLAS management stated that to satisfy the
totality requirement, positive factors demonstrating compliance with Section 1610.8
should be considered.  Grantee management indicated that a weighing of factors, those
that conform vs. those that do not, should determine if a recipient is physically and
financially separate from another organization.
OIG RESPONSE
The OIG considered positive as well as negative factors in reaching our
conclusions.  The conforming factors are not sufficient to offset the non-conforming
factors.  Section 1610.8(a)(3), states that "Whether sufficient physical and financial
separation exists will be determined on a case-by-case basis and will be based on the
totality of the facts."  Based on the totality of the conditions under which the grantee and
the Advocacy Center function, we concluded that LCLAS did not maintain physical and
financial separation from the Advocacy Center.
GRANTEE COMMENT
The grantee stated that most of the recommendations are well within its capacity
to complete and that they are being implemented.  LCLAS requested that the OIG
modify recommendations 5 and 7.  The grantee stated that recommendation 5 did not
address a pivotal question in the separation issue and it would be disruptive to assign
grantee personnel to the PAI function.  The grantee suggested that descriptive
language on the website could provide sufficient separation between the grantee and
the Advocacy Center.
OIG RESPONSE
Subsequent to receiving the comments, the OIG discussed the draft report with
the grantee's Executive Director.  The discussion primarily covered the requested
changes to the recommendations.
The discussion did not result in a change to the OIG's fifth recommendation. The
Advocacy Center's staff oversees the grantee's pro bono program.  Under this program
one to four attorneys provide pro bono legal services to grantee clients on Tuesday
evenings.  The Advocacy Center's Executive Director determines which of the grantee's
clients will be referred to a pro bono attorney.  Advocacy Center employees coordinate
the interaction between the grantee's clients and the pro bono attorneys.  The grantee
provides no oversight of the pro bono attorneys.  The OIG recommendation will correct
this condition and we reaffirm it.
We modified the seventh recommendation.  This recommendation required the
grantee to "Establish an Internet web page separate from the Advocacy Center."  We
continue to believe that, in the Internet context, separate web pages are the best way to
establish a clear distinction between the grantee and the Advocacy Center.  The
expense of implementing the recommendation is minimal.  If separate web pages were
established, they could be electronically linked so that a potential client could easily
access both organizations.
We understand the grantee's wish to have a single web page for both
organizations. Therefore, we modified the recommendation to give the grantee the
option of establishing a separate web page or providing clear language that
distinguishes the grantee from the Advocacy Center.  If the grantee decides that a
single web page is appropriate, the web page must, at a minimum, clearly state that the
grantee does not engage in restricted activities.  It should also state that the grantee
does not endorse or financially support the Advocacy Center's activities that LSC
grantees are precluded from doing.  Additional language distinguishing between the
grantee and the Advocacy Center may also be needed.
The full text of LCLAS's comments is in Appendix l.
AUDIT ACTION PLAN
Please provide an audit action plan for implementation of the recommendations.
The plan should include a description of the action taken to implement the
recommendations and the date corrective action was completed, or will be completed.
Please submit the corrective plan to the OIG within 30 days of this report.
BACKGROUND
The grantee is a nonprofit corporation established to provide legal services to
indigent individuals who meet eligibility guidelines.  Its priority is family law including
domestic violence issues.  About 77 percent of all cases closed by the grantee in 2000
related to family law.  The grantee is located in Eugene, OR.  It is staffed with nine
attorneys and six other employees who assist case handlers and provide administrative
support services.  The grantee received total funding of over $852,000 during their most
recent fiscal year, which ended June 30, 2001.  LSC provided over $293,000 or about
34 percent of the total funds received by the grantee during that year.
Grantees are prohibited from transferring LSC funds to another person or
organization that engages in restricted activities except when the transfer is for funding
PAI activities.  In these instances the prohibitions apply only to the LSC funds that were
transferred to the person or entity performing within the PAI program.  Grantees must
also maintain objective integrity and independence from organizations that engage in
restricted activities.
OBJECTIVES, SCOPE, AND METHODOLOGY
This audit assessed whether the grantee complied with requirements established
in 45 CFR Part 1610 relating to the transfer of funds to other organizations and program
integrity standards.
Our review covered the period July 1, 1999 through June 30, 2001.  The OIG
began this audit work in June 2001 and visited the grantee in Eugene, OR, July 16
through July 25, 2001.  At LSC headquarters in Washington, DC, we reviewed materials
pertaining to the grantee including its Certifications of Program Integrity, audited
financial statements, grant proposals, and recipient profile.  OIG staff discussed issues
relating to the grantee with LSC management officials.
During the on-site visit, the OIG interviewed and collected information from the
Executive Director, attorneys, Administrator and other staff.  Another legal services
provider, Lane County Law and Advocacy Center, was located in the same building as
the grantee.  The OIG interviewed officials with the Advocacy Center, including the
Executive Director.  We ascertained whether the grantee employees were generally
knowledgeable regarding the guidelines set forth in Part 1610.  The audit included an
assessment of the grantee policies and procedures applicable to the transfer of funds to
other organizations and program integrity requirements.
The OIG gained an understanding of the client intake process utilized by the
grantee.  The OIG identified the grantee's controls applicable to monitoring both pro
bono and contract attorneys under its PAI program.
The OIG searched courthouse records to identify cases for which an employee of
the grantee was listed as the attorney of record.  The search was confined to cases filed
in 2000 in the state circuit courts in Lane County and surrounding counties.  We
identified and reviewed 59 cases to determine if they involved a restrictive or prohibited
activity.
The OIG reviewed the grantee's financial accounts for vendors including
contractors, employees, and consultants.  From the 307 vendors identified in the
grantee's Master Vendor List, we judgmentally selected 35 vendors and examined 100
percent of the activity.  We reviewed 177 transactions totaling over $178,000.
The OIG assessed the process used by the grantee to allocate direct and indirect
costs to LSC and non-LSC funds.  Policies and procedures relating to payroll and
timekeeping were evaluated.  The grantee employees were interviewed to determine
their understanding as to which fund they should charge their time relative to case
handling.
All agreements between the grantee, and other organizations and individuals,
were requested.  The OIG reviewed all materials provided including grant funding
instruments, leases, and contracts.
We performed this audit in accordance with Government Auditing Standards
(1994 revision) established by the Comptroller General of the United States and under
authority of the Inspector General Act of 1978, as amended and Public Law 105-277,
incorporating by reference Public Law 104-134.
APPENDIX ll
OIG STAFF RESPONSIBLE FOR THE AUDIT AND THE REPORT
Michael Griffith (Auditor-in-charge)
Anthony M. Ramirez
Abel Ortunio
¹ All sections referenced in this report are in title 45 of the Code of Federal Regulations (CFR).
²  The OIG identified 59 cases with a grantee employee as attorney of record. Fifty-one cases were not subject to Part 1644 reporting because the grantee attorney
did not initially file the case.
URL: http://www.oig.lsc.gov/reports/0201/938010.htm